Information Requested by the
Committee on Appropriations,
Subcommittee on Interior and Related
Agencies, U.S. House of Representatives
on the




   “JOINT VENTURES: PARTNERS IN
    STEWARDSHIP” CONFERENCE
        HELD IN LOS ANGELES
   CALIFORNIA, FROM NOVEMBER 17
       TO NOVEMBER 20, 2003




         Report No. E-IN-MOA-0097-2003-D
                              March 2004
                      United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240



                                                                                March 18, 2004

Committee on Appropriations,
Subcommittee on Interior and Related Agencies,
Ms. Deborah Weatherly, Clerk
U.S. House of Representatives
B-308 Rayburn House Office Building
Washington, D.C. 20515-6023

Dear Ms Weatherly:

        In response to your request, we obtained information on the “Joint Ventures: Partners in
Stewardship” Conference that was held in Los Angeles, California, from November 17 to
November 20, 2003. You indicated that the Subcommittee was particularly interested in the
number of Department of the Interior participants and whether the National Park Service paid for
non-National Park Service individuals to attend the conference. The purpose of the conference
was to offer land management organizations the opportunity to “explore and shape” the
possibilities of forming partnerships and creating a nationwide network of public places.

        According to information provided by the National Park Service, 414 employees from the
Department of the Interior registered for the conference, including 260 from the National Park
Service. Another 46 employees from the National Park Service attended the conference as event
staff. The National Park Service did not directly pay for any non-National Park Service
individuals to attend the conference. However, the Conference Core Team (35 individuals from
the participating organizations) paid, from Conference revenues, travel and transportation costs
of $51,985 for 195 non-Federal participants who made presentations at the conference. In
addition, the Core Team waived registration fees of $51,180 for the 195 non-Federal presenters
and for one presenter from the Office of Management and Budget. Additional information about
the conference follows.

       If your have any questions about the information, please call me at (202) 208- 5745.

                                                           Sincerely,



                                                           Earl E. Devaney
                                                           Inspector General
BACKGROUND
 • The National Park Service, the U.S. Forest Service, the Bureau of Land
   Management, the U.S. Corps of Engineers, the U.S. Fish and Wildlife
   Service, the Bureau of Reclamation, and the Bureau of Indian Affairs
   convened the “Joint Ventures: Partners in Stewardship,” conference. The
   purpose of the gathering was to offer land management organizations the
   opportunity to “explore and shape” the possibilities of forming partnerships
   and creating a nationwide network of public places.

 • According to the conference web site, the “participants will include a broad
   cross-section from federal, state and local governments, the business
   community, tribes and indigenous communities, non-governmental
   organizations and the education and scientific communities.” The website
   also stated that “conference participants will have opportunities to examine
   models of shared leadership, influence the emerging nationwide network of
   public places, interact with agency and partner leaders, learn new skills, and
   hear nationally recognized speakers.”

 • The conference offered 259 different training sessions over the three-day
   period. The sessions covered a wide range of projects and practices, such as
   the Yuma East Wetlands Restoration Project, Southeastern Rail-to-Trails
   Partnership, and Building Effective Corporate Partnerships.

 • A Core Team was responsible for making day-to-day decisions on
   conference planning and financial commitments. The Core Team was
   comprised of 35 people from the partnering agencies (Appendix 1).

 • The financial activities of the conference were divided into two phases. The
   National Park Service provided accounting and fund services for the
   planning phase. The National Park Foundation provided accounting and
   fund services for the conference phase.

 • The information presented in this document was obtained from the National
   Park Service. At the time our report was prepared, the National Park Service
   was still compiling financial information on conference expenditures.




                                     2
PARTICIPANTS
  • A summary of the registered participants is shown in Figure 1.
                                                                 Figure 1
                        PARTICIPANTS                        NUMBER

              Department of the Interior
                National Park Service                                260
                Bureau of Land Management                             66
                U.S. Fish and Wildlife Service                        29
                Bureau of Reclamation                                 20
                Bureau of Indian Affairs                              20
                Departmental Offices                                  19
                  Subtotal For Interior                              414

              Other Federal Agencies
                U.S. Forest Service                                  119
                Corps of Engineers                                    86
                  Subtotal for Other Federal Agencies                205

              Non-Federal
                  Subtotal for Non-Federal                           936

              Total                                                1,555



  • In addition to registered participants, 46 National Park Service employees
     attended the conference as event staff. Ten additional event staff were
     supplied by other Federal agencies (7) and by non-Federal agencies (3). A
     list of the 306 (260 plus 46) National Park Service attendees is presented in
     Appendix 2.




                                      3
Summary of Revenues and Expenses
  • As reported to us on February 10, 2004, planning phase revenues and
    expenses are summarized in Figure 2 and the conference phase in Figure 3.


                                                    Figure 2
                    PLANNING PHASE              AMOUNT

               Revenues (Contributions):
                National Park Service             $285,000
                U.S. Corp of Army Engineers         50,000
                Bureau of Land Management           50,000
                Bureau of Reclamation               15,000

                Total Revenues                    $400,000

               Expenses:
                Total Expenses                    $387,913

               Excess Revenue Over Expenses        $12,087




                                    4
                                                          Figure 3
                  CONFERENCE PHASE                     AMOUNT

  Revenues:
   Registration fees                                     $383,555
   Exhibition fees                                         77,000
   Funds from Partnership Office                           70,588
   Western National Parks Association Contribution           7,500
   Golden Gate Conservancy Contribution                      5,000
   Mt. Rushmore Contribution                                 5,000
   Friends of Great Smoky Mountains Contribution             2,500
   Grand Canyon Association Contribution                     2,500
   Mt. Rushmore Association Contribution                     2,500
   Rocky Mountain Nature Association Contribution            1,000
   Interest                                                     44
   Bank fees                                               (4,199)

   Total Revenues                                        $552,988

  Expenses:
   Total Expenses                                        $506,247

  Excess Revenue Over Expenses                             $46,741


• Total revenues of $952,988 ($400,000 plus $552,988) exceeded total
   expenses of $901,155 ($387,913 plus $506,247) by $58,828. The
   National Park Service advised us that the Core Team would determine
   how to handle any surplus. Initial plans are to create DVDs showing the
   key plenary training sessions of the conference, keeping the web site
   operation for an additional period, and expanding satellite feeds.

• Appendices 3 and 4 present details on the expenditures for the planning
   phase and conference phase, respectively.




                                5
SPONSORS AND CONTRIBUTIONS
    • Four Federal agencies and 18 other sponsors contributed funds or in-kind
      services as shown in Figure 4.
                                                                          Figure 4
                                                        CONTRIBUTIONS
               SPONSORS                            IN-KIND      FUNDS
National Park Service                                           $355,588
Bureau of Land Management                                         50,000
Corps of Engineers                                                50,000
Bureau of Reclamation                                             15,000
          Sub-total Federal Funds                                470,588

Eastern National Parks Association*                                       10,000
Western National Parks Association                                         7,500
Friends of the Great Smoky Mountains                                       2,500
Grand Canyon Association                                                   2,500
Golden Gate Conservancy                                                    5,000
Mt. Rushmore Association                                                   2,500
Mt. Rushmore Friends                                                       5,000
Rocky Mountain Nature Association                                          1,000
Association of Partners for Public Lands   Staff person
Coca-Cola North America                    Products for breaks
National Park Foundation                   Staffing, bus, opening
                                           reception
National Trust for Historic Preservation   Staff person
Unilever                                   Products for breaks
National Assoc. of State Park Directors    Staff person
Los Angeles Dept. of Recreation and Parks Staff and plants
Los Angeles Dept. of Water and Power       Closing night reception
Proud Partners of America’s National Parks Its name for use with
                                           the event
National Association of State Outdoor      Sponsored state parks
Recreation Liaison officers                attendees
          Subtotal Private Funds                                          36,000

           Total Fund Contributions                                    $506,588
*
 Paid directly to one of the speakers


                                        6
OTHER REVENUE SOURCES
 • Exhibit Rental Fees: Vendors paid a rental fee to the National Park
    Foundation for exhibit space (10 feet x 10 feet booths). For space rented
    prior to August 8, 2003, the fee was $800 for an aisle booth and $1,000 for a
    corner booth. After August 8, the fee increased to $900 for an aisle booth
    and $1,100 for a corner booth. A total of 81 vendors paid $77,000 for
    exhibit space.

 • Registration Fees: The standard fee for non Federal participants who
    registered for all three days was $400. The registration fee for Federal
    employees was $340. Fees were adjusted for presenters who registered for
    less than three days. Registration fees of $383,555 were paid by 1,555
    participants.

OTHER INFORMATION
 • The Core Team provided financial assistance of $103,165 to individuals who
    made presentations at the conference. The assistance consisted of the
    $51,985 cost of transportation and lodging for 195 non-Federal presenters
    and waived registration fees of $51,180 for the 195 non-Federal presenters
    and for one presenter from the Office of Management and Budget. A list of
    the presenters and the amount of assistance received is presented in the
    Appendix 5.

 • There were four Keynote speakers: Mr. Ray Suarez, Senior Correspondent,
    the NewsHour; Dr. Joseph Jaworski, founding partner of Generon
    Consulting and author of Synchronicity; Mr. David Rockefeller, National
    Park Foundation; and Ms. Gale Norton, Secretary of the Interior. Mr.
    Suarez received $7,500 in honorarium and $2,080 in other expenses which
    were paid by the Eastern National Parks Association. Dr. Joseph Jaworski
    received $7,500 in honorarium which was provided by the Western National
    Parks Association and $3,042 for travel expenses which were paid by the
    Core Team from registration fees.




                                     7
    Appendix 1




8
    Appendix 2
    Page 1 of 4




9
     Appendix 2
     Page 2 of 4




10
     Appendix 2
     Page 3 of 4




11
     Appendix 2
     Page 4 of 4




12
     Appendix 3




13
     Appendix 4




14
     Appendix 5
     Page 1 of 4




15
     Appendix 5
     Page 2 of 4




16
     Appendix 5
     Page 3 of 4




17
     Appendix 5
     Page 4 of 4




18
